No. 21In the

Supreme Court of the United States
MARK’S ENGINE COMPANY NO. 28 RESTAURANT,
LLC, A LIMITED LIABILITY COMPANY,
Petitioner,
v.
SUPERIOR COURT OF LOS ANGELES COUNTY et al.,
Respondents.

On Petition for a Writ of Certiorari to the
Court of A ppeal of the State of California,
Second A ppellate District

PETITION FOR A WRIT OF CERTIORARI

Mark J. Geragos
Counsel of Record
Geragos & Geragos, APC
644 South Figueroa Street
Los Angeles, California 90017
(213) 625-3900
geragos@geragos.com
Counsel for Petitioner

307607

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Whether the appellate court’s decision improperly
expands the holding set forth in Jacobson v. Massachusetts,
197 U.S. 11 (1905), and its progeny, thereby giving states
unfettered authority to exercise their emergency powers
during a public-health crisis without the possibility of any
meaningful review.
2. Whether the Los Angeles County Department of
Public Health’s order temporarily suspending outdoor
restaurant dining violates the First Amendment right to
freedom of assembly such that heightened scrutiny must
be applied.
3. Whether banning outdoor restaurant dining in
the absence of any study specifically demonstrating that
outdoor restaurant dining contributes to the spread of
COVID-19 is narrowly tailored to achieve the government’s
legitimate interest in limiting the spread of the disease.

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Mark’s Engine Company No. 28 Restaurant, LLC
(“MEC”), a limited liability company, is the petitioner
in this Court. MEC was a real-party-in-interest in the
Superior Court of the State of California, County of Los
Angeles (“trial court” or “Los Angeles Superior Court”)
proceedings, a real-party-in-interest in the Court of
Appeal of the State of California, Second Appellate
District (“Court of Appeal”) writ proceeding, and a
petitioner in the Supreme Court of the State of California
(“California Supreme Court”).
The County of Los Angeles Department of Public
Health and Muntu Davis, M.D., M.P.H., in his official
capacity as Los Angeles County Health Officer (collectively,
the “County”) are respondents in this Court. The County
was the defendant and respondent in the trial-court
proceedings, the petitioner in the Court of Appeal writ
proceeding, and the respondent in the California Supreme
Court.
The Los Angeles Superior Court is also a respondent
in this Court, and was a respondent in the Court of Appeal
writ proceeding and in the California Supreme Court
petition.
California Restaurant Association, Inc. (“CRA”) was a
real-party-in-interest in the Los Angeles Superior Court.
CRA was also a real-party-in-interest in the Court of
Appeal writ proceeding and a petitioner in the California
Supreme Court. On July 30, 2021, CRA petitioned this
Court for certiorari

iii
Pursuant to this Court’s Rule 29.6, undersigned
counsel state that MEC has no parent or publicly held
company owning 10% or more of the company’s stock.

iv
RELATED CASES
• Mark’s Engine Company No. 28 Restaurant, LLC
v. County of Los Angeles, Department of Public
Health et al., No. 20STCV45134, Los Angeles
Superior Court. Granting a preliminary injunction
on December 15, 2020.*
• County of Los Angeles, Department of Public
Health et al. v. Superior Court of Los Angeles
County, No. B309416, Court of Appeal. Staying
preliminary injunction on December 18, 2020.
Issuing peremptory writ directing the Superior
Court to vacate its December 15, 2020 preliminaryinjunction order on March 1, 2021. Denying
petition for rehearing on March 12, 2021.
• County of Los Angeles, Department of Public
Health et al. v. Superior Court of Los Angeles
County, No. S268101, California Supreme Court.
Denying petition for review on June 9, 2021.

* This proceeding was consolidated with California Restaurant
Association, Inc. v. County of Los Angeles, Department of Public
Health et al. (Los Angeles Super. Ct. Case No. 20STCP03881) for
purposes of the hearing on the motions for preliminary injunction
and for the writ proceeding in the Court of Appeal.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITES . . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISIONS  . . . . . . . . . . . . . . . 2
CALIFORNIA AND MUNICIPAL STATUTES,
REGULATIONS, AND ORDERS  . . . . . . . . . . . . . . . . . 3
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING CERTIORARI . . . . . . 10

vi
Table of Contents
Page
I.

The Court of Appeal’s Decision Threatens to
Give States Unfettered Authority to Exercise
Their Emergency Powers During a Public
Health Emergency Without the Possibility
of Any Meaningful Review . . . . . . . . . . . . . . . . . 10

II. The Questions Presented Are Important,
and This Case Presents a Good Vehicle for
Resolving Them. . . . . . . . . . . . . . . . . . . . . . . . . . . 13
III. The Appellate Court’s Decision Misapplies
Jacobson  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
IV. Heightened Scrutiny Must Be Applied to
the County’s Order Suspending Outdoor
Restaurant Dining Because the Order
Infringes Upon the First Amendment
Right to Freedom of Assembly . . . . . . . . . . . . . . 18
V.

Banning Outdoor Restaurant Dining,
in the Absence of Any Study Specifically
Demonstrating that Outdoor Restaurant
Dining Contributes to the Spread of
COVID-19, Is Not Narrowly Tailored to
Achieve the Government’s Legitimate
Interest in Limiting the Spread of the
Disease . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

vii
TABLE OF CITED AUTHORITIES
Page
FEDERAL CASES
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2609 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 24
Coates v. City of Cincinnati,
402 U.S. 615 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
De Jonge v. Oregon,
299 U.S. 365 (1937) . . . . . . . . . . . . . . . . . . . . . . . . 18, 21
Dunn v. Blumstein,
405 U.S. 330 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Hernandez v. Sessions,
872 F.3d 976 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 19
Jacobson v. Massachusetts,
197 U.S. 11 (1905)  . . . . . . . . . . . . . . . . . . . . . . . . passim
Jew Ho v. Williamson,
103 F. 10 (C.C.N.D. Cal. 1900) . . . . . . . . . . . . . . . . . . 20
Michael H. v. Gerald D.,
491 U.S. 110 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . .23
S. Bay United Pentecostal Church v. Newsom,
592 U.S 140 141 S. Ct. 716 (2021) . . . . . . . . . . . . . . . . 24
S. Bay United Pentecostal Church v. Newsom,
985 F.3d 1128 (9th Cir. 2021) . . . . . . . . . . . . . . . . . . . 19

viii
Cited Authorities
Page
San Antonio Indep. Sch. Dist. v. Rodriguez,
411 U.S. 1 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
United Mine Workers v. Illinois State Bar Ass’n,
389 U.S. 217 (1967)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Whitney v. California,
274 U.S. 357 (1927)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
CALIFORNIA CASES
Cty. of Los Angeles Dep’t of Pub. Health v.
Superior Ct. of Los Angeles Cty.
(Restaurant Closure Writ),
61 Cal. App. 5th 478 (2021), reh’g denied (Mar. 12,
2021), review denied (June 9, 2021) . . . . . . . . 9, 10, 20
Brown v. Merlo,
8 Cal. 3d 855 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Harman v. City of Santa Cruz, California,
261 F. Supp. 3d 1031 (N.D. Cal. 2017) . . . . . . . . . . . . 18
People v. Katrinak,
136 Cal. App. 3d 145 (Ct. App. 1982) . . . . . . . . . . . . . 18
OTHER STATE CASES
Milnot Co. v. Richardson,
350 F. Supp. 221 (S.D. Ill. 1972) . . . . . . . . . . . . . . . . . 24

ix
Cited Authorities
Page
FEDERAL STATUTES
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATE STATUTES
California Health & Safety Code § 101040 . . . . . . . . . . . 3
California Health & Safety Code § 120175 . . . . . . . . . . . 3
County of Los Angeles Dep’t of Pub. Health, Order
of the Health Officer, Reopening Safer at Work
and in the Community for Control of COVID-19,
Blueprint for a Safer Economy–Tier 1 Surge
Response (Nov. 25, 2020) . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I  . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
U.S. Const. amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . . 3, 18
RULES
Sup. Ct. R. 10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Sup. Ct. R. 30.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Sup. Ct. R. 14.1(f) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
PETITION FOR A WRIT OF CERTIORARI
MEC respectfully submits this petition for a writ of
certiorari for review of the opinion of the Court of Appeal.
OPINIONS BELOW
The trial court’s December 8, 2020 ruling and
December 15, 2020 order granting a preliminary
injunction are unpublished.1 Appendix (“App.”)2 29a. The
December 18, 2020 order of the Court of Appeal staying
the preliminary injunction order is unpublished. The
March 1, 2021 opinion of the Court of Appeal issuing the
peremptory writ directing the Los Angeles Superior
Court to vacate its December 15, 2020 order is published
and is available at 61 Cal. App. 5th 478. App. 2a. The March
12, 2021 order of the Court of Appeal denying rehearing
is unpublished. The June 9, 2021 order of the California
Supreme Court denying MEC’s petition for review is
unpublished. App. 1a.

1. The December 15, 2020 order is available at 2020 WL 8410014
but the version accessible there omits the referenced Exhibit A: the
trial court’s December 8, 2020 ruling granting the application for
preliminary injunction in part.
2. MEC’s Appendix materials for this Petition are included in
the Petition for a Writ of Certiorari filed by California Restaurant
Association, Inc. in the case California Restaurant Association, Inc.
v. Superior Court of California, Los Angeles County et al. (United
States Supreme Court Case No. 21-148) and all citations herein are
to that appendix.

2
JURISDICTION
On June 9, 2021, the California Supreme Court denied
MEC’s petition for review. App. 1a.
Pursuant to this Court’s July 19, 2021 Order extending
the deadline to file a petition for a writ of certiorari by
150 days in any case in which the relevant lower court
judgment or order was issued prior to July 19, 2021, MEC’s
deadline to file its petition was extended to November 6,
2021, which in accordance to Rule 30.1, moved the deadline
to file to November 8, 2021. Thus, this petition is timely.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS
The First Amendment to the United States Constitution
provides, in relevant part:
Congress shall make no law . . . abridging . . .
the right of the people peaceably to assemble
....
U.S. Const. amend. I.
T he Fi f th A mendment to the Unit ed Stat es
Constitution provides, in relevant part:
No person shall be . . . deprived of life, liberty,
or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.

3
U.S. Const. amend. V.
Section 1 of the Fourteenth Amendment to the United
States Constitution provides, in relevant part:
No State shall . . . deprive any person of life,
liberty, or property, without due process of
law . . . .
U.S. Const. amend. XIV, § 1.
CALIFORNIA AND MUNICIPAL STATUTES,
REGULATIONS, AND ORDERS
Pursuant to this Court’s Rule 14.1(f), the following
state statutes and municipal orders are set out verbatim
in the Appendix to this Petition:
California Health & Safety Code section 101040.
App. 157a.
California Health & Safety Code section 120175.
App. 158a.
County of Los Angeles Dep’t of Pub. Health, Order
of the Health Officer, Reopening Safer at Work and in
the Community for Control of COVID-19, Blueprint for a
Safer Economy–Tier 1 Surge Response (Nov. 25, 2020).
App. 159a.

4
INTRODUCTION
On November 22, 2020, the County announced a
temporary ban on all outdoor and indoor restaurant dining
due to a surge in COVID-19 infections. MEC and CRA
filed separate suits against the County in Los Angeles
Superior Court. In response to several applications for
injunctive relief, the trial court issued an order to show
cause re: preliminary injunction (“OSC”) and set the
consolidated actions for hearing.
On December 8, 2020, the trial court held a hearing on
the OSC and issued a tentative decision, which it adopted
after oral argument. One week later, the court entered
an order in which it found that the County’s evidence did
not support closure of outdoor restaurant dining because
the evidence failed to account for the outdoor nature of
the activity, which had been found by the CDC to carry
little risk. The trial court found that the County had acted
arbitrarily in issuing its order because the County had
failed “to perform the required risk-benefit analysis.”
App. 68a. The trial court’s order therefore enjoined the
County from enforcing or enacting any ban on outdoor
dining after December 16, 2020 (the date the County had
originally contemplated as the end date for its ban) until
and unless the County’s public health officers “conduct[ed]
an appropriate risk-benefit analysis” and articulated this
analysis for the public to see. The County petitioned the
Court of Appeal for a writ of mandate directing the trial
court to set aside the injunction.
The Cour t of Appeal stayed the trial court’s
preliminary injunction and issued an order to show cause
on December 18, 2020. On March 1, 2021, the Court of
Appeal issued a writ of mandate in a published opinion

5
directing the trial court to vacate its December 15, 2020
order enjoining the County’s outdoor-dining ban and to
enter a new order denying MEC and CRA’s requests for
a preliminary injunction.
STATEMENT OF THE CASE
This petition arises from an action brought by MEC
against the County on November 24, 2020, alleging
causes of action for declaratory relief and violations of
the California Constitution and seeking the remedy of
injunctive relief. Specifically, MEC sought an injunction
barring the County from enforcing its November 25,
2020 order entitled “Reopening Safer at Work and in
the Community for Control of COVID 19, Blueprint for a
Safer Economy–Tier 1 Surge Response” (the “Restaurant
Closure Order”).
The County has issued a series of health orders in
an effort to halt the spread of COVID-19. Its initial June
2020 Health Order (the “June Order”) allowed many
businesses, including MEC, to operate, so long as they
followed guidelines established by the state and County
to help curb the spread of COVID-19. As of June 1, 2020,
MEC and other Los Angeles County restaurants were not
permitted to provide dine-in service indoors. They were
permitted only to provide outdoor dining and take-out
dining under the County safety protocols set forth in the
June Order. 3
3. Following the promulgation of the June Order, MEC
complied with all state and local protocols relating to the safe
operation of its restaurant. Doing so required MEC to make a large
investment of time and resources to pivot from its previous indoordining concept to a takeout and outdoor-dining model. Among the
many steps that MEC had to take to comply with the June Order

6
On November 19, 2020, the County implemented a new
order that limited the number of customers at restaurants
with outdoor operations to 50% of outdoor capacity, thus
placing even harsher restrictions on the number of diners
that MEC and businesses like it could serve. In addition,
the November 19, 2020 order curtailed the hours of
operation for restaurants by banning operations between
10:00 p.m. and 6:00 a.m.
On November 22, 2020, the County announced the
Restaurant Closure Order, this time prohibiting outdoor
restaurant dining entirely for a period of at least three
weeks. The Restaurant Closure Order took effect on
November 25, 2020 at 10:00 p.m. and ultimately banned
outdoor restaurant dining entirely. Take-out, delivery,
and drive-thru services remained unaffected.
The County’s own data provided no support for the
shutdown of outdoor-restaurant operations as an effective
means of combatting COVID-19. In attempting to justify
the Restaurant Closure Order, Barbara Ferrer, Ph.D.,
M.P.H., M.Ed., Director of Public Health for the County,
said that there had been a 61% increase in hospitalizations
involving COVID-19 in Los Angeles County between
November 7 and November 20, 2020, which could
potentially have led to the local healthcare system
becoming overwhelmed. App. 38a. Further, Dr. Ferrer
claimed that while most restaurants had complied with
safety mandates, many had had issues, mainly regarding
social distancing. App. 38a.
was to physically distance its outdoor-dining tables by at least eight
feet and spend thousands of dollars on outdoor seating, heating, and
protection. These measures severely limited the number of patrons
that MEC could accommodate.

7
Dr. Ferrer conceded that she did not have any concrete
data regarding how many people had been infected as
a result of outdoor-restaurant dining. App. 38a. While
the County pointed to a CDC study as its “best data”
in support of the Restaurant Closure Order, that study
was not specific to restaurants and made no distinction
between indoor and outdoor dining. There was no evidence
for the conclusion that outdoor dining should have been
banned. App. 85a. The CDC study showed only that a
subset of COVID-19 patients reported that they had
recently dined at restaurants more than the general
population. App. 69a. The CDC study did not make any
distinction between indoor and outdoor dining, even
though all available evidence regarding the transmission
of any airborne or aerosol illness suggested that this was
a key factor. App. 69a.
In actuality, the County’s data indicated that
COVID-19 cases traced back to its restaurants and bars
accounted for a mere 3.1% of confirmed cases countywide
from over 204 outbreak locations—the vast majority of
which were chain or fast-food type restaurants that did
not follow MEC’s business model (i.e., restaurants whose
typical take-out and drive-thru model was unaffected
by the Restaurant Closure Order). App. 70a. Of 2,257
confirmed COVID-19 cases, 2,249 of were traced to staff
members at workplaces and just eight came from non-staff
members. App. 38a.
Not only did the County fail to present scientific
evidence of the public-health benefits of prohibiting
outdoor dining, it also failed to estimate or otherwise
account for any of the economic, social, or public-health
costs of its outdoor dining prohibition. App. 60a. Basic
standards of public-health-policy design require a

8
comparison of the costs and benefits of a policy to justify
it from a scientific and ethical point of view. App. 60a. Yet
the record in the trial court showed no contemplation by
the County of the very substantial costs associated with
its outdoor-dining ban. App. 65a.
Because there was no rational or legitimate basis
supporting the County’s total shutdown of outdoor dining,
the trial court partially granted MEC’s application for a
preliminary injunction on December 8, 2020. App. 30a.
In fact, California Health & Human Services Agency
Secretary, Mark Ghaly, M.D., M.P.H., admitted, when
asked about the trial court’s decision in an interview on
December 8, 2020, that in reality the idea was to drive
people indoors. App 50a. The trial court enjoined the
County from maintaining the Restaurant Closure Order
beyond December 16, 2020 unless the County conducted
a risk-benefit analysis to support the Order. App. 67a.
The County petitioned the Court of Appeal for a writ
of mandate reversing the trial court’s order. On December
18, 2020, the Court of Appeal issued a temporary stay of
the preliminary injunction and issued an order to show
cause why a preemptory writ of mandate should not issue
directing the trial court to vacate its order granting the
preliminary injunction.
On March 1, 2021, the Court of Appeal reversed the
trial court’s order granting the preliminary injunction
MEC had sought. The Court of Appeal’s opinion relied
on the highly deferential standard of review applicable
to legislative acts in epidemic emergencies that was
established by this Court in Jacobson v. Massachusetts,
197 U.S. 11, 39 (1905). Under Jacobson, government action
to protect public health will be upheld unless it has “no real

9
or substantial relation” to the object of public health or is
“a plain, palpable invasion” of rights. Cty. of Los Angeles
Dep’t of Pub. Health v. Superior Ct. of Los Angeles Cty.
(Restaurant Closure Writ), 61 Cal. App. 5th 478, 488 (2021)
(quoting Jacobson, 197 U.S. at 31), reh’g denied (Mar. 12,
2021), review denied (June 9, 2021). The Court of Appeal
acknowledged that the Jacobson test predates the tiers
of scrutiny used in modern constitutional law and that it
has been criticized in recent U.S. Supreme Court opinions.
Id. Nonetheless, it has not been overruled, and the Court
of Appeal relied on Jacobson and a recent dissenting
opinion by this Court’s Justice Kavanaugh in Calvary
Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603 (2020), to
conclude that a standard of “extreme deference” applies.
Restaurant Closure Writ, 61 Cal. App. 5th at 488–89.
The Court of Appeal’s decision described MEC’s claim
as a substantive-due-process claim subject to a rationalbasis test. Id. at 490. The Court of Appeal reasoned that
the Restaurant Closure Order was a quasi-legislative act
that had to be upheld unless arbitrary and capricious,
or entirely lacking in evidentiary support. Id. The court
further stated that in reviewing a quasi-legislative act,
a court cannot reweigh the evidence. Id. The Court of
Appeal described the core issue as whether the County’s
temporary suspension of outdoor dining was rationally
related to a legitimate state interest of limiting the spread
of COVID-19. Id. at 491.
The Court of Appeal disagreed with the trial court’s
conclusion that the County’s implementation of its
Restaurant Closure Order based on generalized evidence
of a COVID-19 risk associated with outdoor dining was
arbitrary absent a risk-benefit analysis. Id. at 493. The
Court of Appeal described a mandate for a “nebulous

10
risk-benefit requirement” as inconsistent with the trial
court’s role. Id. It found that the County’s imposition of the
Restaurant Closure Order was not arbitrary, capricious,
or entirely lacking in evidentiary support. Id.
The Court of Appeal declined to second-guess publichealth actions “in an ‘area[ ] fraught with medical and
scientific uncertainties,’” id. at 495 (alteration in original),
and held that “[b]ecause the Restaurateurs failed to
satisfy their burden of demonstrating the [Restaurant
Closure] Order is arbitrary, capricious, or without rational
basis . . . they cannot ultimately succeed on the merits of
their claims,” id. at 495.
REASONS FOR GRANTING CERTIORARI
I.

The Court of Appeal’s Decision Threatens to
Give States Unfettered Authority to Exercise
Their Emergency Powers During a Public Health
Emergency Without the Possibility of Any
Meaningful Review.

Review should be granted here because the Court of
Appeal “has decided an important question of federal law
that has not been, but should be, settled by this Court.”
Sup. Ct. R. 10(c). The Court of Appeal relied heavily on
Jacobson in reaching its decision, but essentially ignored
a crucial holding in that case. The Jacobson Court
recognized that a local government could exercise power
“in such an arbitrary, unreasonable manner, or might
go so far beyond what was reasonably required for the
safety of the public, as to authorize or compel the courts
to interfere.” Jacobson, 197 U.S. at 28. The trial court in
the instant matter concluded that court interference was

11
warranted. After considering extensive evidence, the
trial court carefully explained its rationale in a decision
spanning more than fifty pages. The length of this ruling
was necessitated by the nuances of the issues in question.
The County had presented evidence purporting to justify
its outdoor-dining ban, but this evidence in fact spoke
only to the general dangers of COVID-19 and the most
basic concepts underlying prevention of the transmission
of this disease. None of the County’s evidence came close
to suggesting that that the outdoor-dining ban was an
effective means for preventing the spread of the virus. The
trial court actually gave the County three opportunities to
produce evidence, but the County failed on each occasion.
Despite a highly deferential abuse-of-discretion
standard, the Court of Appeal overturned the trial court
in a relatively brief decision that fixated on the notion
that it had been improper for the trial court to require
the County to conduct a risk-benefit analysis. The Court
of Appeal, however, oversimplified the trial court’s ruling,
which had allowed the County’s outdoor-dining ban to
stand for the three-week timespan originally proposed
and merely mandated a risk-benefit analysis to enable
the ban to continue indefinitely. The trial court’s ruling
was entirely consistent with Jacobson, which stands for
the proposition that a local government’s power to take
public health measures is very broad—but not unlimited.
The Court of Appeal misapplied Jacobson to give
unelected bureaucrats carte blanche during public-health
emergencies and to shield the actions of these officials
from any meaningful scrutiny.
Despite the County’s total lack of evidence that
outdoor dining significantly increases the spread of

12
COVID-19, the trial court still upheld the County’s ban
for a limited duration of three weeks. It is the indefinite
nature of the ban that lies at the heart of this case.
Before allowing the ban to stand indefinitely, the trial
court simply required additional evidence linking outdoor
dining to the spread of COVID-19. The mere speculative
idea that outdoor dining could lead to an increase in
COVID-19 transmission may have been enough to justify
a three-week ban under Jacobson, but an indefinite ban
promulgated without evidence supporting this speculative
idea crossed into Jacobson’s category of governmental
actions that are so arbitrary and unreasonable as to justify
court interference.
Though MEC promptly sought review of the Court
of Appeal’s decision in the Supreme Court of California,
review was denied, and hence the instant petition is
MEC’s last resort. MEC is one of tens of thousands of
Los Angeles County businesses now bound by precedent
that essentially allows local public-health departments to
shutter them on a whim. So overreaching is the opinion
here at issue that it virtually eliminates the possibility of
meaningful judicial review of acts by the public-health
departments within California. Following the Court of
Appeal’s logic, a county would be entirely justified in
halting all commerce within its borders at the sound of
a single sneeze. Such a scenario is clearly incompatible
with Jacobson.
This Court should grant the instant petition so
that it may render competent judgment on the pressing
constitutional questions here at issue. If the Court does
not grant certiorari, its role as the final arbiter of U.S.
Constitutional questions in this context will effectively

13
be usurped by a disparate body of lower courts around
the nation, whose decisions will undoubtedly vary widely,
escape scrutiny, and allow Jacobson to be transmogrified.
II. The Questions Presented Are Important, and This
Case Presents a Good Vehicle for Resolving Them.
Unfortunately, the COVID-19 pandemic is far from
over. With recent surges of the highly contagious Delta
variant around the United States, local public-health
orders have already started to return, and it is entirely
possible that mandatory closures of businesses will once
again be imposed in the coming months. Thus, definitive
resolution of the questions here presented is essential so
that business owners throughout the United States are
not deprived of their livelihoods without justification or
appropriate compensation.
While it is hoped that the United States has already
come through the worst of the COVID-19 pandemic and
that no additional state-mandated business closures will
be necessary for the remainder of this public-health
crisis, the questions before this Court are still of great
importance, as the possibility of future pandemics still
looms. Jacobson established a floor for when state action
taken in the name of public health is justifiable, but
the precise limits of the corresponding ceiling are still
unclear, and further guidance from this Court is therefore
necessary.
This Court should resolve the issues presented
because lack of guidance regarding the scope of publichealth departments’ powers during emergencies has led
to overreaching orders that have had devastating effects

14
on the rights of individuals and businesses throughout
the United States. Natural persons and business entities
alike are entitled to their constitutional rights, even in
the midst of a pandemic. This Court should more clearly
articulate the scope of those rights so that disputes
between private citizens and local governments can be
minimized. The COVID-19 pandemic caused lengthy court
closures across the nation, leading to massive litigation
backlogs on already congested dockets. This problem
was then further exacerbated by innumerable lawsuits
resulting from pandemic-associated closures themselves.
As the Jacobson Court stated:
[I]f a statute purporting to have been enacted
to protect the public health, the public morals,
or the public safety, has no real or substantial
relation to those objects, or is, beyond all
question, a plain, palpable invasion of rights
secured by the fundamental law, it is the duty
of the courts to so adjudge, and thereby give
effect to the Constitution.
Jacobson, 197 U.S. at 31. The Court of Appeal’s opinion
overturned a valid finding by the trial court that the
County’s indefinite outdoor-dining ban was arbitrary,
capricious, and not rationally related to the County’s
object of preventing the spread of COVID-19. In issuing
this opinion, the Court of Appeal essentially eviscerated
Jacobson’s prohibition of public-health measures that
palpably invade constitutional rights.
This case is an ideal vehicle for resolving the questions
here at issue, as it concerns a public health measure that
decimated restaurants (businesses already hit hard by

15
the pandemic) and that was taken by a local government
based purely on speculation. Further, this case hails
from the most populous county in the United States and
concerns the decision of an intermediate appellate court
that was never reviewed. The decision of the California
Court of Appeal for the Second Appellate District thus
currently stands as the final word on the important federal
constitutional questions implicated here as they concern
more than ten million people. A decision by this Court
providing definitive resolution of the questions presented
in the instant petition would accordingly be of great value.
This Court should intervene to deter the expansive
effects that the Court of Appeal’s decision could have on
people across the United States, not just in California’s
Second Appellate District. This Court’s guidance is
necessary to establish clear standards to guide publichealth officials in exercising their expansive—but
not unlimited—police powers under the high-stakes
circumstances of a pandemic.
III. The Appellate Cour t’s Decision Misapplies
Jacobson.
The Court of Appeal erred in its application of
Jacobson to the facts of this case.
Of critical importance to the Jacobson decision was
the fact that vaccination had been widely accepted within
the scientific community as an effective means of achieving
the goal that the public-health law before the Court was
trying to achieve—namely protection of a community from
smallpox. See Jacobson, 197 U.S. at 23–24, 30 (“for nearly
a century most of the members of the medical profession

16
have regarded vaccination . . . as a preventive of smallpox;
[and], while they have recognized the possibility of injury
to an individual . . . they generally have considered the
risk . . . too small to be seriously weighed”). This stands
in stark contrast to the scientific community’s opinions
regarding the effectiveness of banning outdoor dining
as a means of curbing the spread of COVID-19. As the
trial court recognized, there was no scientific consensus
that the County’s order banning outdoor dining was an
effective means of combatting COVID-19. On the contrary,
the CDC placed outdoor dining within its second-lowest
tier of risk, and various studies available to the County
indicated that outdoor dining was not linked with any
significant increase in transmission of COVID-19. App
59a. Whereas the law the Court upheld in Jacobson
was premised on principles that had, for decades, been
embraced by science, the reasoning underlying the order
at issue here has never had scientific acceptance at all.
Even if the County’s order had been grounded in
widely accepted scientific principles, however, it still would
not survive scrutiny under Jacobson due to its absolute
and indefinite nature. In Jacobson, the statute at issue
imposed a five-dollar penalty on unvaccinated individuals,
and an exception existed for children who were not suitable
candidates for vaccination. Jacobson, 197 U.S. at 12. In
this case, however, the County imposed a total ban on
outdoor restaurant dining with no exceptions that was to
last indefinitely.

17
The Jacobson Court explained that “no rule prescribed
by a state, nor any regulation adopted by a local
governmental agency acting under the sanction of state
legislation, shall contravene the Constitution of the United
States, []or infringe any right granted or secured by that
instrument.” Id. at 25. The Jacobson Court expressly
recognized the potential for public-health measures to be
so arbitrary and oppressive as to exceed even the broad
bounds of the police power afforded to public-health
departments. Id. at 38–39. The County’s order was just
such a measure. Wholly aside from the fact that it had no
basis in science or reason whatsoever, it was so absolute
and overarching that it clearly runs afoul of Jacobson.
As mentioned previously, the Court of Appeal
glossed over the fact that the trial court in this matter
permitted the County’s outdoor-dining ban to stand
undisturbed for the originally proposed period of three
weeks. While MEC in no way concedes that a three-week
ban was constitutionally permissible, such a ban was
at least limited to a brief and clearly defined period of
time, and the trial court therefore had a sound basis for
allowing it under Jacobson. Not so with an indefinite ban.
The County’s indefinite ban fails to pass muster under
Jacobson not only because there was no rational basis
to support it, but also because, even if there had been,
its completely unlimited nature placed it so far outside
the bounds of reason that it violated many fundamental
constitutional rights. The unlimited ban here at issue thus
finds no support in Jacobson, and the decision of the Court
of Appeal must be overturned.

18
IV. Heightened Scrutiny Must Be Applied to the
County’s Order Suspending Outdoor Restaurant
Dining Because the Order Infringes Upon the First
Amendment Right to Freedom of Assembly.
The right of assembly is a fundamental right
guaranteed by the First A mendment to the U.S.
Constitution: “Congress shall make no law respecting
an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a redress
of grievances.” U.S. Const. amend. I. This Court has
long recognized that the right to peaceably assemble is
“among the most precious of the liberties safeguarded
by the Bill of Rights.” United Mine Workers v. Illinois
State Bar Ass’n, 389 U.S. 217, 222 (1967). “It is beyond
debate that freedom to engage in [assembly] for the
advancement of beliefs and ideas is an inseparable aspect
of the ‘liberty’ assured by the Due Process Clause of the
Fourteenth Amendment, which embraces freedom of
speech.” People v. Katrinak, 136 Cal. App. 3d 145, 152 (Ct.
App. 1982). Though not absolute, the freedom of assembly
is nevertheless an enumerated fundamental right, both
publicly and privately, unless shown likely to produce
a clear and present danger of a serious substantive evil
that rises far above public inconvenience, annoyance, or
unrest. Harman v. City of Santa Cruz, California, 261 F.
Supp. 3d 1031, 1043–44 (N.D. Cal. 2017). When reviewing
the right to peaceably assemble, a court must look “to [the
assembly’s] purpose.” De Jonge v. Oregon, 299 U.S. 365
(1937). “Mere public intolerance or animosity cannot be
the basis for abridgment of [ ] constitutional freedoms.”
Coates v. City of Cincinnati, 402 U.S. at 615.

19
Militarized public-health responses are now the
centerpieces of the COVID-19 pandemic. On November
22, 2020, the County announced that it was completely
prohibiting outdoor dining and drinking at restaurants,
bars, breweries, and wineries by issuing the Restaurant
Closure Order. The County promulgated its ban without
providing any convincing scientific data, and, at the time,
the safety of outdoor dining had been well established
by numerous studies. App 56a. The County’s Restaurant
Closure Order was not backed by legitimate scientific
reasoning, rather, it irrationally singled out an industry
on an arbitrary and capricious basis pursuant to a political
motive. As lower courts have repeatedly invoked Jacobson
to justify extreme and violative impositions of authority
by public-health officials in recent months, the principle
that government overreaches are possible and that rights
protected by the U.S. Constitution continue to exist even
during a pandemic has too often been ignored. “[P]ublic
interest concerns are implicated when a constitutional
right has been violated, because all citizens have a stake
in upholding the Constitution.” S. Bay United Pentecostal
Church v. Newsom, 985 F.3d 1128, 1152 (9th Cir. 2021)
(quoting Hernandez v. Sessions, 872 F.3d 976, 996 (9th
Cir. 2017)).
W hen a government actor ci rcumscr ibes the
fundamental right to freedom of assembly with negligible
scientific proof, an individual’s basic liberty is inherently at
stake. An owner of a restaurant invites the public to gather
and dine, naturally encouraging patrons to exchange ideas
and socialize. By imposing its indefinite outdoor-dining
ban, the County not only devastated the businesses of
MEC and countless others like it, but also prevented
these businesses and their patrons from propagating the

20
idea that the ban was overreaching and unsupported by
evidence.
Not only did the Court of Appeal misapply Jacobson
and misunderstand the limits of that case, but the court
also failed to consider critical constitutional questions that
the County’s outdoor-dining ban implicated. United States
citizens have the unequivocal right to assemble peaceably,
and the County infringed this right by banning outdoor
dining without significant evidence that doing so would be
an effective public-health measure. Though MEC argued
that its First Amendment rights had been violated, the
Court of Appeal flatly rejected this contention, claiming,
among other things, that the County’s outdoor-dining ban
was narrowly tailored to limit the spread of COVID-19.
Restaurant Closure Writ, 61 Cal. App. 5th at 496. The
Court of Appeal came to this conclusion despite the fact
that the trial court, after having weighed the copious
evidence submitted by the parties, essentially determined
that the converse was true. App. 15a–16a.
Jacobson prohibits the County from engaging in
a “plain, palpable invasion of rights” secured by the
Constitution. Jacobson, 197 U.S. at 31. See also Jew Ho v.
Williamson, 103 F. 10, 14 (C.C.N.D. Cal. 1900) (concluding
that courts may determine whether public-health
regulations are reasonable and calculated to accomplish
their purported purposes).
MEC rests its freedom-of-assembly argument on
the fact that the County’s Restaurant Closure Order
prevented businessowners from voicing opposition by
expressive association or assembly. The ability to eat at a
restaurant is not what is in question, rather it is the right

21
to assemble and petition the government for a redress of
grievances. The Court of Appeal did not appropriately
recognize the conduct limited by the Restaurant Closure
Order as First Amendment activity and therefore did not
fairly weigh the purported justification for the County’s
Order against the corresponding invasion of MEC’s
constitutional rights as Jacobson requires.
V. Banning Outdoor Restaurant Dining, in the
Absence of Any Study Specifically Demonstrating
that Outdoor Restaurant Dining Contributes to the
Spread of COVID-19, Is Not Narrowly Tailored to
Achieve the Government’s Legitimate Interest in
Limiting the Spread of the Disease.
The freedom-of-assembly clause was incorporated
against the states, preserving “the right of free speech,
the right to teach, and the right of assembly, of course, [as]
fundamental rights.” De Jonge, 299 U.S. 365. Accordingly,
government action that limits the freedom of assembly is
evaluated under a strict-scrutiny analysis that is nearly
identical to the framework applicable to freedom-of-speech
cases. Whitney v. California, 274 U.S. 357, 373 (1927).
When a government practice restricts fundamental rights,
it is subject to strict scrutiny and can be justified only if
it furthers a compelling government purpose, and even
then, only if no less-restrictive alternative is available. See,
e.g., San Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S.
1, 16–17 (1973); Dunn v. Blumstein, 405 U.S. 330 (1972).
The County still lacks convincing scientific data to
prove the existence of a compelling government interest—
or even a rational one—in restricting MEC’s business
from operating. At a hearing held by the Los Angeles

22
County Board of Supervisors prior to imposition of the
Restaurant Closure Order, Supervisor Kathryn Barger
introduced a motion to keep outdoor dining open. App.
52a. At the hearing on this motion, Drs. Ferrer and Davis
admitted that the County’s recommendation to prohibit
outdoor dining had been based on a CDC national study,
and that, in fact, the County had not actually been tracking
data regarding what impact—if any—outdoor dining had
on COVID-19 transmission in Los Angeles County.4 App.
50a-52a. Indeed, the CDC study on which the County
relied was wholly irrelevant to outdoor dining. Dr. Davis
stated that this study was the “best information we have
that’s very specific to restaurants,” expressly admitting
to the Board of Supervisors on November 24, 2020 that
there was no hard scientific evidence linking the recent
COVID-19 surge in Los Angeles County to outdoor dining.
App. 90a. The County’s own data also failed to provide
any support for the Restaurant Closure Order. The data
tracked all non-residential settings at which three or
more laboratory-confirmed COVID-19 cases had been
identified. Of the 2,257 COVID-19 cases identified, only
seventy originated from restaurants, and the vast majority
of these restaurants did not have an outdoor-dining model
comparable to MEC’s. App. 35a.
The County’s suggestion that public-health officials
have unfettered discretion to premise their orders on
irrelevant scientific studies is a matter of public concern and
an explicit threat to modern constitutional jurisprudence,
especially that surrounding the right to freedom of
4. The trial court’s order partially granting MEC’s request
for a preliminary injunction details copious evidence that reveals
that there was insufficient scientific data to support the Restaurant
Closure Order.

23
assembly. Governmental action circumscribing the
freedom of assembly must be, at a minimum, legitimately
related to a compelling interest. Without the necessary
strict-scrutiny analysis, public health officials are free to
violate constitutional rights with virtual impunity. The
County’s Restaurant Closure Order was an arbitrary and
capricious measure based on negligible data, and should
have failed any tier of scrutiny. The purpose of judicial
scrutiny “is to prevent future generations from lightly
casting aside important traditional values . . . .” Michael
H. v. Gerald D., 491 U.S. 110, 123 (1989). This Court should
grant certiorari so that lower courts do not continue to
allow public-health officials to indiscriminately deprive
citizens across the United States of their constitutional
rights.
Overly broad interpretations of Jacobson have
prevented the judiciary from evaluating the expertise
and rationales underlying consequential orders by
public-health officials. The very concept of constitutional
scrutiny is frustrated by misapplications of Jacobson that
simultaneously encourage public-health officials to ignore
the consequences of their actions and block aggrieved
citizens from seeking redress for constitutional violations.
At some point, public-health officials must be held
accountable for infringing constitutional rights despite
a dearth of scientific data justifying their doing so.
While Jacobson entitles local governments to some
deference, “a plain, palpable invasion of rights secured
by . . . fundamental law,” Jacobson, 197 U.S. at 31, has
clearly occurred where harsh restrictions affecting the
livelihood of businesses have been put in place despite
a lack of competent scientific evidence underlying them.

24
Otherwise, the modern approach to constitutional scrutiny
is completely eviscerated whenever a public-health
emergency arises. See Brown v. Merlo, 8 Cal. 3d 855, 869
(1973) (“[T]he constitutionality of a statute predicated
upon the existence of a particular state of facts may be
challenged by showing to the court that those facts have
ceased to exist.” (quoting Milnot Co. v. Richardson, 350
F. Supp. 221, 224 (S.D. Ill. 1972))).
Government action based on differential treatment
violates the First Amendment unless it is shown that
such action is the least-restrictive means of achieving a
compelling government interest. When a fundamental
right has been violated, government action requires a valid
justification. By imposing restrictions on restaurants but
selectively permitting the operation of other nonessential
businesses, the County exposed a less-restrictive
alternative to achieve its purported interest in combatting
COVID-19. The State of California is well known to favor
“protect[ing] lucrative industries while denying similar
largesse to its faithful.” S. Bay United Pentecostal Church
v. Newsom, 592 U.S. __, 141 S. Ct. 716 (2021).
In Nevada, it seems, it is better to be in
entertainment than religion. Maybe that
is nothing new. But the First Amendment
prohibits such obvious discrimination against
the exercise of religion. The world we inhabit
today, with a pandemic upon us, poses unusual
challenges. But there is no world in which the
Constitution permits Nevada to favor Caesars
Palace over Calvary Chapel.

25
Calvary Chapel Dayton Valley v. Sisolak, 140 S. Ct.
2603, 2609 (2020) (Gorsuch, J., dissenting). The current
unchecked nature of Jacobson enables public officials to
pick and choose winners in private business based on
conjecture and speculation with no regard for the efficacy
of their reasoning. The ubiquity of misapplications of
Jacobson has muddled the standard of review applicable
to COVID-19-related restrictions in courts across the
United States.
The Court of Appeal’s decision essentially released
the County from any obligation to vet public-health orders
prior to issuing them. As a result, unelected government
employees have been given expansive powers that are
virtually nonreviewable. The fact that the County’s
Restaurant Closure Order prohibited restaurant dining
while allowing businesses in the spheres of entertainment,
retail, marijuana distribution, and other nonessential
areas to continue operating without limitations proves that
the Restaurant Closure Order was not the least-restrictive
means of achieving the County’s purported goal of slowing
the spread of COVID-19. The County has argued that
entrusting the judiciary to review public-health measures
would frustrate its ability to make science-based decisions
in the name of public health during a pandemic. However,
this contention would require the courts to turn a blind
eye to grievous abuses of power not grounded in science
at all. Deference, though broad, has its limits. App 14a.
This case presents a prime example of a local
government freely bending to fear. The CDC’s socialdistancing guidelines were, and still are, appropriate to
limit the spread of COVID-19. It is important to note that
the County relied on CDC guidelines that were irrelevant

26
to outdoor dining to back its Restaurant Closure Order.
When scientific data is unnecessary to justify such a
broad imposition of power, governments are free to
violate constitutional rights without reservation. It is
the role of the judiciary to intervene when the actions
of government officials destroy the very livelihoods that
those actions were purportedly designed to protect. A
less-restrictive alternative could not be more obvious
in this case considering that the County gave special
treatment to countless nonessential businesses. MEC
has the right to operate its lawful restaurant business
subject to reasonable conditions imposed by the State of
California to protect public health. Where governmental
action imposes restrictions that bear no relation to reason,
however, MEC’s constitutional rights have been violated,
and MEC is entitled to redress.
CONCLUSION
For the foregoing reasons, MEC respectfully requests
that this Court grant the instant petition for a writ of
certiorari.
			

Respectfully submitted,
Mark J. Geragos
Counsel of Record
Geragos & Geragos, APC
644 South Figueroa Street
Los Angeles, California 90017
(213) 625-3900
geragos@geragos.com
Counsel for Petitioner

